No. 19-784

In The

Supreme Court of the United States
UNIVERSITY OF PENNSYLVANIA, et al.,
v.

Petitioners,

JENNIFER SWEDA, et al.,
Respondents.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Third Circuit

CERTIFICATE OF SERVICE

I, David B. Salmons, a member of the Supreme Court Bar, hereby certify that
on March 26, 2020, three copies of the foregoing Supplemental Brief for Petitioners
were served, as required by Supreme Court Rule 29.5(c), on the following:
JEROME J. SCHLICHTER
MICHAEL A. WOLFF
SEAN E. SOYARS
SCHLICHTER BOGARD & DENTON LLP
100 South Fourth Street, Suite 1200
Saint Louis, Missouri 63102
(314) 621-6115
jschlichter@uselaws.com
mwolff@uselaws.com
ssoyars@uselaws.com
Counsel for Respondents
Service was made by a third-party commercial carrier for delivery within
3 calendar days.

Dated: March 26, 2020

DAVID B. SALMONS
Counsel of Record
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 739-3000
david.salmons@morganlewis.com
Counsel for Petitioners

2

